     DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                         Office of Audit Services, Region V
                                                                         233 North Michigan Avenue
                                                                         Suite 1360
                                                                         Chicago, IL 60601

                                        January 29, 2010

Report Number: A-05-09-00047

Ms. Kellie Ailes
Executive Director
Community Action Program Committee of Lancaster Fairfield County Area
1743 East Main Street
Lancaster, OH 43130

Dear Ms. Ailes:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Audit of Head Start Matching Costs for the Period
January 1, 2007, Through December 31, 2008.” We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mike Barton, Audit Manager, at (614) 469-2543 or through email at
Mike.Barton@oig.hhs.gov. Please refer to report number A-05-09-00047 in all correspondence.

                                             Sincerely,



                                             /Stephen Slamar/
                                             Acting Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Kellie Ailes


Direct Reply to HHS Action Official:

Kent Wilcox
Regional Administrator
Administration for Children and Families
U.S. Department of Health & Human Services
Region V
233 North Michigan Avenue, Suite 400
Chicago, IL 60601
  Department of Health & Human Services
              OFFICE OF
         INSPECTOR GENERAL


      AUDIT OF HEAD START
    MATCHING COSTS FOR THE
     PERIOD JANUARY 1, 2007,
   THROUGH DECEMBER 31, 2008

  COMMUNITY ACTION PROGRAM
COMMITTEE OF LANCASTER FAIRFIELD
         COUNTY AREA



                       Daniel R. Levinson
                        Inspector General

                         January 2010
                         A-05-09-00047
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov



 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.


OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social and
other services to enrolled children and families. Within the U.S. Department of Health & Human
Services, the Administration for Children and Families administers the Head Start Program.

The Head Start program provides grants to local public and private non-profit and for-profit
agencies (local agencies) to provide comprehensive child development services to economically
disadvantaged children and families, with a special focus on helping preschoolers develop the
early reading and math skills needed to be successful in school. Head Start programs engage
parents in their children’s learning and emphasize parental involvement in the administration of
local Head Start programs.

The Head Start Program Performance Standards, found at 45 CFR §§ 1301 through 1311,
establish regulations applicable to program operations, administration and grants management
for all grants awarded under the Head Start Act. Federal regulations require local agencies to
provide a 20-percent matching share of the total costs of their program. The matching share is
from non-Federal sources which may be in the form of cash or in-kind contributions.

The Community Action Program Committee of Lancaster Fairfield County (grantee) reported
Head Start costs totaling $2,190,268 for 2007 (January 1, 2007 through December 31, 2007) and
$2,168,438 for 2008 (January 1, 2008 through December 31, 2008). Of these costs, the grantee
reported in-kind contributions totaling $510,798 for 2007 and $490,061 for 2008 as part of its
share of the required 20-percent match. Based on the grant award, the 20-percent matching
requirement is $419,868 for 2007 and $419,594 for 2008.

OBJECTIVE

Our objective was to determine whether the grantee reported costs that met Federal program
requirements for the 20-percent matching share and are allocable, reasonable and allowable in-
kind contributions claimed for 2007 and 2008.

SUMMARY OF FINDINGS

The grantee did not meet the Federal 20-percent matching requirement for the 2-year audit
period. Of the $839,462 required to meet the Federal matching requirement, the grantee reported
$453,841 of allowable contributions for volunteer services, facility space, and donated items.
However, the grantee claimed $547,019 for Head Start and Early Head Start home visit space
that is not considered a reasonable in-kind contribution.




                                                i
RECOMMENDATIONS

We recommend the grantee:

      work with Office of Head Start officials to determine the appropriate amount of in-kind
       matching for home visit space for 2007 and 2008; and

      revise its method of computing in-kind matching for home visit space.

GRANTEE COMMENTS

In written comments on our draft report, the grantee stated it is working with Office of Head
Start officials to determine the appropriate amount of in-kind matching for home visit space for
2007 and 2008 and to ensure full compliance with its non-Federal share obligation for the 2010
program year.




                                                ii
                                                   TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION...........................................................................................................1

     BACKGROUND ........................................................................................................1

     OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................1
       Objective ...............................................................................................................1
       Scope.....................................................................................................................1
       Methodology .........................................................................................................2

FINDINGS AND RECOMMENDATIONS .................................................................2
     Federal Criteria .....................................................................................................2
     Home Visit Space .................................................................................................3

     RECOMMENDATIONS............................................................................................3

     GRANTEE COMMENTS ..........................................................................................3

APPENDIX

     GRANTEE COMMENTS




                                                                      iii
                                      INTRODUCTION

BACKGROUND

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social and
other services to enrolled children and families. Within the U.S. Department of Health & Human
Services, the Administration for Children and Families (ACF) administers the Head Start
Program.

The Head Start program provides grants to local public and private non-profit and for-profit
agencies (local agencies) to provide comprehensive child development services to economically
disadvantaged children and families, with a special focus on helping preschoolers develop the
early reading and math skills needed to be successful in school. Head Start programs engage
parents in their children’s learning and emphasize parental involvement in the administration of
local Head Start programs.

The Head Start Program Performance Standards, found at 45 CFR §§ 1301 through 1311,
establish regulations applicable to program operations, administration and grants management
for all grants awarded under the Head Start Act. Federal regulations require local agencies to
provide a 20-percent matching share of the total costs of their program. The matching share is
from non-Federal sources which may be in the form of cash or in-kind contributions.

The Community Action Program Committee of Lancaster Fairfield County (grantee) reported
Head Start costs totaling $2,190,268 for 2007 (January 1, 2007 through December 31, 2007) and
$2,168,438 for 2008 (January 1, 2008 through December 31, 2008). Of these costs, the grantee
reported in-kind contributions totaling $510,798 for 2007 and $490,061 for 2008 as part of its
share of the required 20-percent match. Based on the grant award, the 20-percent matching
requirement is $419,868 for 2007 and $419,594 for 2008.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the grantee reported costs that met Federal program
requirements for the 20-percent matching share and are allocable, reasonable and allowable
in-kind contributions claimed for 2007 and 2008.

Scope

Our review included costs reported for the period January 1, 2007 through December 31, 2008.
We did not review the overall internal control structure of the grantee. We limited our internal
control review to obtaining an understanding of the procedures used by the grantee to document
compliance with Federal requirements for the 20-percent matching share of costs and in-kind
matching contributions.



                                                1
We reviewed 6-month periods of in-kind contributions totaling $275,762 from January 1, 2007
through June 30, 2007 and $240,328 from July 1, 2008 through December 31, 2008. In the
selected 6-month periods, we reviewed volunteer services, transportation, facility space, home
visit space, and donated items.

We conducted field work at the grantee’s office in Lancaster, Ohio in April 2009.

Methodology

To accomplish the objective, we performed the following:

      reviewed applicable laws, regulations and guidelines;

      reviewed the 2006 and 2007 OMB Circular A-133 audits of the grantee;

      reviewed correspondence with the ACF Region V Office related to non-Federal matching
       costs;

      reviewed costs claimed and supporting documentation for sampled cost categories; and

      reviewed sampled costs for allocability, reasonableness, and allowability.

We conducted the audits in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The grantee did not meet the Federal 20-percent matching requirement for the 2-year audit
period. Of the $839,462 required to meet the Federal matching requirement, the grantee reported
$453,841 of allowable contributions for volunteer services, facility space, and donated items.
However, the grantee claimed $547,019 for Head Start and Early Head Start home visit space
that is not considered a reasonable in-kind contribution.

Federal Regulations

Federal regulations at 45 CFR part 74 apply to all Head Start and Early Head Start grants. Cost
sharing or matching requirements applicable to the program are found in 45 CFR 74.23. To be
accepted, all cost sharing or matching contributions shall be (1) necessary and reasonable for
proper and efficient accomplishment of project and program objectives, and (2) allowable under
the applicable cost principles.




                                               2
Home Visit Space

The grantee reported in-kind matching for home visit space associated with the center-based
Head Start and home-based Early Head Start programs. The grantee claimed a total of $547,019
for home visit space during the two-year audit period. For Head Start, the grantee claimed
$470,820 for home visit space that was based on an entire year’s rental cost for each of the two
required home visits. For Early Head Start, the grantee claimed $76,199 for home visit space
that was based on an entire year’s rental cost for every family enrolled in home-based Early
Head Start for each 6-month school term.

The ACF/Office of Head Start in-kind contributions guidance allows the use of the parent’s
home to be valued as in-kind for the time of the home visits. The valuation should be based on a
general calculation of the hourly portion of average monthly housing costs. Using ACF/Office
of Head Start guidance, a reasonable valuation of the home visit space is about $5,144 for the 2-
year audit period.

Although ACF/Office of Head Start guidance to estimate in-kind matching for home visit space
was not available to the grantee, the allocation methodology used did not meet the test of
reasonableness. Reducing the allowable in-kind matching contribution from $547,019 to a
reasonable amount causes the grantee to fall below the 20-percent matching requirement for the
2-year audit period.

RECOMMENDATIONS

We recommend the grantee:

      work with Office of Head Start officials to determine the appropriate amount of in-kind
       matching for home visit space for 2007 and 2008; and

      revise its method of computing in-kind matching for home visit space.

GRANTEE COMMENTS

In written comments on our draft report, the grantee stated it is working with Office of Head
Start officials to determine the appropriate amount of in-kind matching for home visit space for
2007 and 2008 and to ensure full compliance with its non-Federal share obligation for the 2010
program year.




                                                3
APPENDIX
                                                         APPENDIX: AUDITEE COMMENTS 



                                          Lancaster - Fairfield Community Action Agency
                                                                           ,\l k had K. Ontll")                                            Kdli<:Aib
                                                                              (\orord (',,,,idell'                                   I ~\;,-,c\Ui \'"'' Director




                             December 22, 2009

                             Office of Inspector General
                             Office of Audit Services, Region V
                             233 North Michigan Avenue
                             Suite 1360
                             Chicago, Illinois 60601

                             RE: A-OS-09-00047

                             To Whom It May Concern:

                             The Community Action Commission of the Lancaster-Fairfield County Area, Inc. (LFCAA)
                             has received the U.S. Department of Health and Human Services, Office of Inspector
                             General (OIG) draft report dated December 2, 2009.

                             The OIG office reviewed the programs non-federal share for the years of 2007 (January
                             1, 2007 through December 31, 2007) and 2008 (January 1, 2008 through December 31,
                             2008) . The review determined that the calculation used for Head Start and Early Head
                             Start home visit space was not considered reasonable.

                             According to the report, it has been advised that LFCAA work with the Office of Head
                             Start officials to determine the appropriate amount of in-kind matching for the home
                             visit space for 2007 and 2008 and revise its method of computing in-kind matching for
                             home visit space.

                             In regards to the previous program years of 2007 and 2008, we are working with
                             Regional Office to make any needed adjustments to our non-federal share report.

                             Adjustments to our floor space calculation have been implemented effective
                             immediately upon notification from the Regional Office for the current 2009 program
                             year. We are anticipating that this adjustment will greatly.reduce our non-federal share
                             contribution and have requested a waiver for 2009.

                             We have identified additional resources and have submitted our new calculation of
                             home visit floor space to ensure our full compliance in meeting our non-federal share
                             obligation for the 2010 program year. The 2010 non-federal share budgets including
                             calculations and contributions have been approved by the Regional Office of Head Start.

                             If you should have any further questions regarding this response, please contact me at
                             740.653.4146 Ext. 8001.

                             Sincerely,

                             Is Kell ie Ailesl
                             Kellie Ailes
                             Executive Director of Community Action Program Commission
                             of the Lancaster-Fairfield County Area, Inc.


I "l' U I   "1'\1 l\ t ~(~   51r   ' I .. I ~ (   ).   Hn~ -(,S • 1.dIlQM(:r.  OhiO ,_\ I JfJ • PhOlll..": ....411.(1)J 1 116 ·   : -"tll (,;.' ,11j(1.!
                                                          www.f.Jirca:t.t',11- \\,\V'\\_t.lIrtiddrc:cyclf..,,\.ofl!
